ORIGINAL
No:

FILED
SEP 1 2 2020

IN THE

OFFICE OF THE CLERK
SUPREME COURT. U.S.

Supreme (Emirt af % Jlwtel* States
PALAN I KARUPAIYAN,
-Petitioner
v.
DEPARTMENT OF EDUCATION,
NEW YORK CITY
- Respondent
On Petition for a Writ of Certiorari
to the United States Court of
Appeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Palani Karupaiyan,
[Homeless/Evicted]

Pro se-Petitioner
212-470-2048(M)
palanikay@gmail.com

QUESTION PRESENTED
1) When petitioner’s home is evicted on Nov 2019,
District Court dismissed the complaint on Dec 10 2019,
Plaintiff/petitioner got this appealable order on Mar 05 2020,
Plaintiff/petitioner filed notice of appeal on Mar 06 2020
how does the US Court of Appeal have no-jurisdiction under 28
U.S.C. § 2107; Bowles v. Russell, 551 U.S. 205, 214 (2007)?
2) 28 U.S.C. § 2107/Rule 4(a)(6) allows 14 days to reopen the case
for filing notice of appeal when the appealable order has Lack of
notice, should the District Court deny to reopen for fraction of
day for filing notice of appeal?
3) Because of Petitioner is homeless, his constitutional rights and
civil rights can be denied?

PARTIES TO THE PROCEEDING
The Petitioner is Palani Karupaiyan, Plaintiff- Appellant.
The Respondent is Department of Education, New York City,
Defendant - Appellee/Respondent,
Other defendants were Vaibhav Wakode, Nadine Brown, Asif
Ali Khan, Bebe Kamta, Armando Taddei, Alice Carman,
Jaysmar Bastien, Mani C. Krishnamurthy. These Other
defendants were employees of the Dept, of Education, NY City.
No related case(s)

TABLE OF CONTENTS
QUESTION PRESENTED...............

1

PARTIES TO THE PROCEEDINGS

1

TABLE OF CONTENTS

11

TABLE OF AUTHORITIES

in

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS/ORDERS BELOW

1

JURISDICTION.

1

CONSTITUTIONAL AND
STATUTORY PROVISIONS NVOLVED

1

STATEMENT

2

REASONS FOR GRANTING THE WRIT.

6

CONCLUSION

9
APPENDIX

APPENDIX A, Court of Appeals Decision

la

APPENDIX B, District Court Decision.....

2a, 12a

APPENDIX C, Order Denying Rehearing..

13a

APPENDIX D, Proof of service

14a

ii

TABLE OF AUTHORITIES
Bowles v. RusselL 551 US 205 - Supreme Court 2007

6, 7, 8

Hamer v. Neighborhood Housing Services,
138 S. Ct. 13 - Supreme Court 2017

6, 7,8

STATUTES /RULES
28U.S.C. §2107

6, 7,8

FAP Rule 4(a)(5)

7,8
6, 7,8

FAP Rule 4(a)(6)

iii

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a Writ of Certiorari issue to review
the judgment/order below

OPINIONS BELOW
No opinion of the United States Court of appeals. Order of
dismissal of appeal appears at Appendix: A to the petition
No opinion of the United States District Court. Order of
dismissing the complaint entirely appears at Appendix: B to the
petition
Petitioner is unaware the Court of appeal or US District Court
orders were published or not.

JURISDICTION
The date on which the United States Court of Appeals decided my
case was June 26 2020. Pet.App. la
A timely petition for rehearing was denied by the United States Court
of Appeals on the following date: August 11 2020. and a copy of the
order denying rehearing appears at Appendix: C. Pet.App. 13a
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
28U.S.C. §2107;
Bowles v. Russell, 551 U.S. 205, 214 (2007);
Hamer v. Neighborhood Housing Services, 138 S. Ct. 13 Supreme Court 2017.

l

STATEMENT OF THE CASE
During the Mid-2017, defendant Dept, of Education,
NYC, told the plaintiff that only foreigner can work on their
contract jobs and US citizen should not work on the contract
jobs. When plaintiff questioned this matter, defendant removed
the plaintiff from work for retaliation. Plaintiff commenced this
action on November 20, 2017. The District Court dismissed
Plaintiffs original complaint on December 7, 2017, and granted
Plaintiff leave to file an amended complaint. Plaintiff filed an
amended complaint on January 11, 2018, and was granted leave
to file a second amended complaint, SAC. The Court denied
Plaintiffs request to file a third amended complaint when he
received the right to sue letter from DOJ. District Court also
denied the motion to reconsider 3 rd amended complaint.
With 2nd amended complaint, Plaintiff brings claims for
race, color, gender, national origin, religion, age, and disability
discrimination, retaliation, hostile work environment, and
violation of the Equal Pay Act.
Defendant moved for dismissal of the Second Amended
Complaint (SAC) pursuant to Rule 12(b)(6) of the Federal Rules
of Civil Procedure. Defendant argued
1} Plaintiffs federal claims should be dismissed as timebarred to the extent they are based on events that occurred before
February 15, 2017.

2

2) Defendant argues Plaintiffs Title VII, ADA, ADEA,
and GINA claims are barred for failure to exhaust his
administrative remedies.
3) The remaining claims, in Defendant's view, must be
dismissed for failure to state a cause of action. On Dec 10 2019,
District Court decided to dismiss the SAC so Order addresses
only the claims raised in the Second Amended Complaint as
below:
I. Failure to Exhaust Administrative Remedies
a. Title VII, Americans with Disabilities Act(ADA), and
Genetic Information Nondiscrimination Act-GINA Claims
b. The Age Discrimination in Employment Act -ADEA Claim
II. Failure to State a Claim Upon Which Relief May Be Granted
a. NY State and City HRL Hostile Work Environment Claims
b. Equal Pay Act Claim Fails to State a Claim.
On Dec 10 2019, District Court Judge Hon. William
Francis Kuntz II ordered that Defendant's motion to dismiss is
GRANTED in their entirety.
Since Nov 2019, the petitioner apartment is evicted. Till
today, the petitioner is not able to lease the apartment due to
unemployment, corona virus, and his disabilities including Situs
inversus Totalis, an Genetic malformation disability.
During the Trial the defendant attorney was
communicating with petitioner thru email. But for this
3

appealable order, Defendant attorney did not send a copy of
order of dismissal to the plaintiff/petitioner thru email.
Due to Homeless, petitioner was not able to get the
District Court’s order of dismiss the complaint (dated Dec 10
2019) until March 05 2020.
On March 06 2020, Petitioner filed Combined Notice of
appeal and motion for extension of time with good cause that
the petitioner was homeless, petitioner got final order on March
05 2020 with District Court. District Court denied the motion to
request for additional days to file notice of appeal until today
(Mar 06 2020).
PROCEEDINGS IN THE USCA-2nd CIRCUIT.
At the Court of Appeal, I requested that did I need to file
motion to request for additional days for Notice of appeal with
Court of appeal since District Court denied my extension request.
I was replied by Court of appeal that here is appeal so such
extension request is not needed.
On June 26 2020, Court of appeal dismissed the appeal for
lack of jurisdiction under 28 U.S.C. § 2107; Bowles v. Russell
551 US. 205, 214 (2007). (suasponte)
Along with dismissal of appeal, Petitioner’s motion with
USCA 2nd circuit for expedite the appeal due life threatening
genetic illness which was denied as moot. Petitioner’s motion to
forma pauperis was denied as moot.

4

On Aug 11 2020, Court of appeal, 2nd circuit denied the
appellant’s motion for panel reconsideration, or, in the
alternative, for reconsideration en banc.
Court of Appeal’s order of dismissal of appeal and order denying
reconsideration were send to wrong address of appellant when
the appellant updated the change of address with Court of appeal.
Court of appeal approved the petitioner for e-filing but failed to
send the docket entries thru email notification.
As well, Court of Appeal did not to provide the order(s) thru
email.
Also I have requested the appellee’s attorney to communicate
with me thru email.
In USCA Appellee did not claim about the appellant’s appeal is
time or untimely.
NOW the petitioner filed his Petition for a Writ of Certiorari
is timely.

5

REASONS FOR GRANTING THE WRIT
In Bowles v. Russell 551 US 205 - Supreme Court
2007, petitioner moved to reopen the filing period
pursuant to Federal Rule of Appellate Procedure 4(a)(6),
which allows a District Court to grant a 14-day extension
under certain conditions, see 28 U.S.C. § 2107(c). The
District Court granted Bowles' motion but inexplicably
gave him 17 days to file his notice of appeal. He filed
within the 17 days allowed by the District Court, but
after the 14-day period allowed by Rule 4(at(6t and §
2107(c). The Sixth Circuit held that the notice was
untimely and that it therefore lacked jurisdiction to hear
the case under this Court's precedent.
In Bowles. @2372 US Supreme Court vacate the
decision of the Court of Appeals and remand for
consideration of the merits.
In Hamer v. Neighborhood Housing Services, 138 S.
Ct. 13 - Supreme Court 2017 @17 that
......... “This case presents a question of time,
specifically, time to file a notice of appeal from a
District Court's judgment. In Bowles v. Russell, 551
U.S. 205, 210-213, 127 S.Ct. 2360, 168L.Ed.2d96
(2007), this Court clarified that an appeal filing
deadline prescribed by statute will be regarded as
6

mandatory claim-processing rules, and therefore
misapplied Bowles.
Simples argument is Bowles was reversed under Rule
4(a)(6), Hamer was reversed under Rule 4(a)(5) when
District Court granted (extra) additional time. In my case
because of District Court did not grant any additional
day(s) (within 14 days), USCA 2nd circuit dismissed my
appeal. Suppose District Court should have reopened the
docket for up to 14 or more additional days to file notice
of appeal, my appeal should be dismissed by USCA.
Im prose, I did not claimed the extension to file
notice of appeal under 28 U.S.C. § 2107 but my request
should be under Federal Rules of Appellate Procedure.
In other words, I filed combined notice of appeal with
extension request which did not note that my request
under 28 U.S.C. §2107.
In my case, District Court entered the order of
dismissal of complaint on Dec 10 2019, due to home
eviction petitioner become homeless. Plaintiff got the
appealable final order on Mar 05 2020. On Mar 06 2020
petitioner filed Combined Notice of appeal and motion
for extension of time (together), the request was
instantaneous reopen to docket, file notice of appeal
8

which did not need even single complete (24 hour) day
docket need to reopen(extension).
Because of homeless, address-less, got applicable
order on Mar 05 2020 and filing notice of appeal with
extension request on Mar 06 2020 is good
cause/excusable neglect.
This case is similar to lack-of-notice situation, within
180 days of entering appealable order, I filed notice of
appeal with extension request on next day of I got
appealable order which should not be dismissed by
USCA.
Because of the petitioner is homeless, his civil rights
and fair justice should not be denied to him.

CONCLUSION
For any and all foregoing reasons, Petitioner prays
that this Court issue a Writ of Certiorari to review the
judgement/order of the United States Court of Appeals
for the Second Circuit.
Respectfully submitted,

lr(V7^
Palani Karupaiyan, Prose, Petitioner
212-470-2048(m),

palanikav@gmail.com

9

